                                                                 Issue Date
                                                                              June 8, 2007
                                                                 Audit Report Number
                                                                              2007-FW-1010




TO:         Brian D. Montgomery
            Assistant Secretary for Housing—Federal Housing Commissioner, H


FROM:
            Frank E. Baca
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: Alethes Mortgage, LLC, and Its Dallas, Texas, Branch, Waters Edge Mortgage,
           LLC, Did Not Comply with All HUD Underwriting Requirements


                                    HIGHLIGHTS

 What We Audited and Why

             We reviewed the operations at an Alethes Mortgage, LLC (Alethes); branch
             located at 12160 North Abrams, Dallas, Texas. The branch operates under the
             name Waters Edge Mortgage, LLC (Waters Edge). We selected Alethes’ Waters
             Edge branch for review due to its high default rate.

             Our objective was to determine whether Alethes and its Waters Edge branch
             complied with U.S. Department of Housing and Urban Development (HUD)
             regulations, procedures, and instructions in the origination of Federal Housing
             Administration (FHA)-insured single-family mortgages.


 What We Found


             Alethes did not comply with all HUD requirements. Specifically, it did not notify
             HUD about one loan that contained an irregularity, conducted incomplete quality
             control reviews, and closed loans with underwriting deficiencies. By not alerting
                  HUD to potential fraud or serious violations, Alethes increased the FHA
                  insurance fund’s risk.

    What We Recommend


                  We recommend that HUD’s assistant secretary for housing—federal housing
                  commissioner and chairman of the Mortgagee Review Board require Alethes to
                  indemnify one loan for $168,358, 1 and ensure that it complies with HUD’s
                  underwriting requirements.

                  For each recommendation without a management decision, please respond and
                  provide status reports in accordance with HUD Handbook 2000.06, REV-3. Please
                  furnish us copies of any correspondence or directives issued because of the audit.

    Auditee’s Response


                  We provided a draft report to Alethes on April 16, 2007, and held an exit
                  conference on April 20, 2007. Based on information provided during the exit
                  conference, we provided a revised draft report on April 25, 2007. Alethes
                  provided written comments on May 25, 2007. Alethes disagreed that it should
                  indemnify one loan. However, it did agree that its quality control contractor
                  needs to comply with all HUD requirements. Based on additional documentation
                  provided by Alethes, we modified the report as necessary. Alethes’ response
                  along with our evaluation is included in Appendix B of this report. We redacted
                  names of borrowers and did not include the attachments due to the volume.




1
     The projected loss is $48,824 based on HUD’s insurance loss rate of 29 percent.


                                                         2
                            TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit                                                                   5
Finding: Alethes Did Not Comply All HUD Underwriting Requirements

Scope and Methodology                                                               9

Internal Controls                                                                  10

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               11
   B. Auditee Comments and OIG’s Evaluation                                        12
   C. Required Quality Control Review Reverifications Missing from 8 of 14 Files   26
      Reviewed
   D. Case Narratives                                                              27




                                            3
                         BACKGROUND AND OBJECTIVES

The National Housing Act, as amended, authorizes the U. S. Department of Housing and Urban
Development (HUD) to provide mortgage insurance for single-family homes. HUD must
approve a lender that originates, purchases, holds, or sells Federal Housing Administration
(FHA)-insured loans. Lenders must follow the statutory and regulatory requirements of the
National Housing Act and HUD’s instructions, guidelines, and regulations when originating
insured loans. Lenders that do not follow these requirements are subject to administrative
sanctions.

Waters Edge Mortgage, LLC (Waters Edge), previously known as HomeQuest Mortgage, is now
owned by Alethes Mortgage, LLC (Alethes). Alethes created Waters Edge on October 25, 2004.
Fourteen 2 loans originated by one Waters Edge underwriter during the review period, October
2004 through September 2006, defaulted. The majority of the loans consisted of new or existing
construction with one refinanced loan. The defaults occurred after 0 to 14 payments. The
mortgage amounts totaled $1.74 million with $439,463 paid on six claims.

Alethes was conceived as AmeriNET Mortgage in 1998. In 2001, AmeriNET was
reincorporated into Alethes. Originally, Alethes was a loan correspondent. However, on
October 31, 2003, it received HUD’s approval to be an originator of HUD loans. HUD
terminated two of Alethes’ other branches located in Austin, Texas, on May 15, 2006, 3 and July
6, 2006. 4

As part of our 2006 annual audit plan, we selected Alethes’ Waters Edge branch because of its
high default rate involving one of its underwriters.

Our objective was to determine whether Alethes and its Waters Edge branch complied with HUD
regulations, procedures, and instructions in the origination of FHA-insured single-family
mortgages.




2
    Also, apart from the 14 loans reviewed, one additional defaulted loan closed at the Waters Edge branch but was
    originated by a different underwriter during the audit scope. In total, we reviewed 15 loans.
3
    Mortgagee number 1756700441.
4
    Mortgagee number 1756701004.


                                                        4
                                   RESULTS OF AUDIT

Finding: Alethes Did Not Fully Follow All HUD Underwriting and
Other Compliance Requirements
Alethes did not fully follow all HUD underwriting and other compliance requirements.
Specifically, it did not notify HUD about a loan that contained an irregularity, conducted
incomplete quality control reviews, and closed loans with underwriting deficiencies. By not
alerting HUD to potential fraud or other serious violations, Alethes subjected the FHA insurance
fund to risk. Further, since Alethes did not meet quality control review and origination
requirements, HUD does not have assurance that loans originated by Alethes met HUD
guidelines.



    Alethes Did Not Notify HUD of
    Potential Fraud


                 Alethes did not notify HUD of an irregularity on one loan. The loan 5 contained
                 suspicious employment documents. Alethes stated that the borrower
                 manufactured documents. However, Alethes did not notify HUD although the
                 loan servicer required Alethes to indemnify this loan after its review.

                 HUD required 6 Alethes to notify it of findings of fraud or other serious violations
                 within 60 days of the initial discovery. Alethes’ legal counsel believed that
                 Alethes did not have to report these matters because they had not yet been
                 adjudicated. However, HUD needs to be made aware of problems with insured
                 loans before adjudication.

                 Alethes did not perform a quality control review of one defaulted loan until its
                 servicer notified it that the loan had reached the 90-days deliquent status within
                 12 months of origination. The servicer’s quality control review found that the
                 borrower misrepresented income and requested Alethes to repurchase the loan.
                 After being notified of the problem, Alethes conducted its own quality control
                 review of the loan and also concluded that the borrower misrepresented income.
                 To originate the loan, Alethes stated that it relied upon the manufactured
                 documents relating to income from a second job to qualify the loan. Further, a
                 false verbal employment verification may have occurred.




5
     Loan number 491-8687429.
6
     HUD Handbook 4060.1, REV-2, “FHA Title II Mortgage Approval Handbook,” paragraph 7-3J.


                                                    5
     Alethes Performed Incomplete
     Quality Control Reviews


                  Alethes did not conduct complete quality control reviews. Specifically, Alethes
                  did not (1) use HUD’s Neighborhood Watch system to determine which loans
                  defaulted within the first six months, (2) verify all required documents during
                  quality control reviews, or (3) select 10 percent of FHA loans for one of three
                  months reviewed,

                  Neighborhood Watch system. Alethes did not use HUD’s Neighborhood Watch
                  system to determine which loans defaulted within the first six months. Instead, it
                  relied upon its servicer to inform it when a loan defaults within the first six
                  months (see previous section). HUD regulations state, “[i]n addition to the loans
                  selected for routine quality control reviews, mortgagees must review all loans
                  going into default within the first six payments.” 7 Alethes’ quality control plan
                  contains the same requirement. Alethes needs to use HUD’s Neighborhood Watch
                  as a resource to determine whether loans go into default within the first six
                  months and not rely upon its servicer to provide this information.

                  Verification of documents. HUD requirements 8 and Alethes’ quality control
                  plan 9 require reverification of certain documents. According to Alethes’ quality
                  control plan, written reverification must be attempted, and if it cannot be
                  obtained, then a verbal reverification may be completed. Alethes and its quality
                  control contractor did not comply with either its quality control plan or HUD
                  requirements for 8 of the 14 loans reviewed. See appendix C for details.

                  Review of 10 percent of FHA loans. For one of three months reviewed, Alethes’
                  quality control contractor did not select and review 10 percent of FHA loans
                  originated as required. 10 Alethes’ quality control contractor selects loans based
                  on the branch and loan officer to ensure that all loan officers are reviewed based
                  on their output. The contractor believed that it met the intention of the
                  requirement because in some months it over selected FHA loans for review and in
                  some months it under selected loans. However, this process did not always
                  ensure that 10 percent of FHA loans were selected for quality control review.




7
      HUD Handbook 4060.1, REV-2, “FHA Title II Mortgage Approval Handbook,” paragraph 7-6 D.
8
      HUD Handbook 4060.1, REV-2, “FHA Title II Mortgage Approval Handbook,” chapter 7.
9
      Alethes’ quality control plan 2005, part IVA1 and 2.
10
      HUD Handbook 4060.1, REV-2, “FHA Title II Mortgage Approval Handbook,” paragraph 7-6 and Alethes'
      Quality Control Plan p 2."


                                                     6
     Alethes Closed Loans With
     Underwriting Deficiencies



                   Alethes did not comply with all underwriting and compliance requirements in that
                   it did not (1) always properly evaluate borrowers’ credit by adding nontraditional
                   credit items to borrowers’ credit reports, (2) include compensating factors in the
                   mortgage credit analysis worksheet as required on one loan, or (3) document the
                   transfer of gift funds from the donor to the borrower.

                   Use of nontraditional credit items. Alethes’ Waters Edge branch added
                   nontraditional credit 11 items to borrowers’ credit reports, giving the appearance
                   that the credit was enhanced. Borrowers served by Waters Edge generally had
                   poor credit histories. According to Alethes’ employees at the Waters Edge
                   branch, the credit score was not rescored by the addition of these items because of
                   the cost. Waters Edge relied upon the credit company to verify the validity of the
                   information, although at one time, it performed the verifications.

                   For four of the borrowers, Waters Edge added payroll deductions to the credit
                   reports. HUD requirements 12 specifically disallow payroll insurance deductions
                   to be considered as periodic payments on a regular basis. As shown below,
                   Waters Edge added the medical, dental, and vision insurance payroll deductions
                   to a borrower’s credit report.




                   In another case, the updated credit report showed that the borrower paid for rent
                   as well as water. However, the borrower received a housing choice voucher,
                   which included an allowance for utilities. In this instance, the borrower’s credit
                   was enhanced by the appearance that the borrower paid montly, when in reality
                   HUD paid the rent and the utilities. Additionally, Alethes added the child card
                   expense to this borrower’s credit report.




11
      Nontraditional credit uses trade items not normally used to establish credit such as day care expenses.
12
      HUD Handbook 4155.1, REV-5, “Mortgage Credit Analysis for Mortgage Insurance, One to Four Family
      Properties,” paragraph 2-4B2.


                                                         7
             Compensating factors. For one loan, Alethes did not include compensating factors
             on the mortgage credit analysis worksheet when the liability factors exceed HUD
             benchmark guidelines. HUD regulations state that past credit history determines
             the borrower’s attitude toward credit and strong compensating factors need to
             offset the borrower’s slow payments, judgments, and delinquent accounts.

             Documentation of gift transfers. Alethes did not document the transfer for any of
             the loans that received gift funds. HUD regulations state that the lender must
             document the transfer of funds from the donor to the borrower.

Conclusion

             Alethes did not fully follow HUD requirements and sound underwriting in loans
             reviewed and should indemnify HUD for one loan. While the majority of loans
             reviewed did not disclose significant departures from HUD requirements, Alethes
             needs to improve its underwriting and quality control. These improvements
             would improve Alethes’ compliance with HUD requirements and lower the risk to
             the FHA insurance fund.


Recommendations


             We recommend that HUD’s assistant secretary for housing—federal housing
             commissioner and chairman of the Mortgagee Review Board

             1A. Require Alethes to indemnify the loan with an original mortgage amount of
                 $168,358. The projected loss is $48,824 based on HUD’s insurance loss rate
                 of 29 percent.

             1B. Require Alethes to ensure that its quality control contractor complies with all
                 HUD regulations and Alethes’ quality control plan, including reporting
                 potential fraud and other serious violations to HUD and reviewing
                 Neighborhood Watch for loans defaulting within six months, verifying
                 required documents, and performing quality control reviews of 10 percent of
                 FHA loans.

             1C. Ensure that Alethes complies with HUD’s underwriting requirements,
                 including not enhancing borrowers’ credit, documenting compensating
                 factors when exceeding liability ratios, and obtaining gift transfer
                 documentation.




                                               8
                                       SCOPE AND METHODOLOGY

To accomplish our audit objectives, we

        Reviewed applicable HUD handbooks and mortgagee letters.

        Reviewed 15 defaulted loans 13 originated 14 by Alethes from October 2004 to September
         2006. We added one defaulted loan to our scope that Alethes’ quality control review
         found contained questionable documentation.

        Examined closing documentation including credit reports, appraisals, and loan
         applications.

        Conducted interviews with officials of Alethes and Waters Edge; Alethes’ quality
         assurance contractor, Covenant Mortgage; and the HUD Quality Assurance Division.

        Contacted borrowers by mail, telephone, and in-person interviews.

        Performed site visits at seven properties.

        Reviewed Alethes’ quality control plan.

In addition, we relied on data maintained by HUD in its Neighborhood Watch system. However,
we did not perform a detailed analysis of the reliability of this computer database.

The audit covered the period October 2004 to September 2006. We conducted our fieldwork at
our office in Fort Worth, Texas; Waters Edge’s office in Dallas, Texas; and Alethes’ office in
Austin, Texas, from December 2006 through February 2007. We performed the audit in
accordance with generally accepted government auditing standards.




13
     Out of a universe of 150 loans in the Fort Worth and Dallas jurisdiction, the underwriter reviewed closed 62 (41
     percent) of the loans.
14
     One underwriter originated 14 of the 15 loans selected for review.


                                                          9
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       •      Effectiveness and efficiency of operations,
       •      Reliability of financial reporting, and
       •      Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Control
              We determined the following internal controls were relevant to our audit
              objectives:

                     Quality control plan—Policies and procedures that management requires
                      to reasonably ensure implementation of HUD quality control
                      requirements.

                     Loan origination process—Policies and procedures that management
                      requires to reasonably ensure that the loan origination process complies
                      with HUD program requirements.

              We assessed the relevant controls identified above. A significant weakness exists
              if management controls do not provide reasonable assurance that the process for
              planning, organizing, directing, and controlling program operations will meet the
              organization’s objectives.


 Significant Weakness


              Based on our review, we believe no significant weaknesses existed.




                                               10
                                   APPENDIXES

Appendix A


                SCHEDULE OF QUESTIONED COSTS
                AND FUNDS BE PUT TO BETTER USE




                 Recommendation         Ineligible 1/     Funds to be put
                     number                               to better use 2/
                         1A                                       $48,824




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. The Inspector General Act, section 5, paragraph (4) d,
     states that this category includes indemnification agreements between
     mortgagees/lenders/issuers and the Mortgagee Review Board not to file certain claims in
     the future on selected FHA insurance cases.




                                            11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         12
Comment 1




            13
14
Comment 2




            15
16
17
18
19
Comment 3




Comment 4




            20
Comment 5




            21
Comment 6




            22
Comment 8




Comment 2

Comments 4,
  5, & 6




Comment 7




              23
Comment 8




            24
                               OIG Evaluation of Auditee Comments

1.     While we appreciate Alethes for modifying its quality control plan and practice, we
       maintain that notification to HUD should be sooner. Alethes was notified of the potential
       misrepresentation on June 16, 2006, but does not believe it has a duty to report that
       information to HUD until 60 days after October 27, 2006, or December 26, 2006, over six
       months after it was notified. We maintain that Alethes should have reported this matter to
       HUD within 60 days of June 16, 2006.

2.     Alethes agreed with the recommendation. In the instances where Alethes provided
       documentation to support its position, we made changes to the report.

3.     Our conclusion was based upon Alethes’ quality control plan that required a monthly
       review of 10 percent of loans.

4.     Nontraditional credit is only for borrowers without normal trade references. It is not to be
       used to enhance the credit history of a borrower with a poor payment history. 15 Alethes
       agreed that many of its borrowers have poor credit histories. We maintain that the purpose
       of adding of payroll deductions, specifically prohibited by HUD, and rental information to
       credit reports was to enhance borrowers’ poor payment histories.

5.     Alethes stated that its standard underwriting procedure is to include all compensating
       factors on the final Mortgage Credit Analysis Worksheet. Our review confirmed this.
       However, for one loan they did not add the compensating factors.

6.     Alethes agreed that the files provided to the auditor did not contain documentation of the
       gift. Further, in an interview with Alethes’ attorney and underwriter, they both agreed that
       Alethes did not obtain the gift transfer documentation.

7.     We amended the internal control section to reflect that the issues were minor and not
       significant.

8.     In this specific instance, Alethes had red flags of potential problems including the loan
       being referred to them by a builder because of insufficient income. Further, Alethes staff
       questioned the authenticity of income documentation and quality control staff was not able
       to reconfirm the existence of the bank employee that verified the borrower’s bank balance.
       By ignoring these red flags, Alethes put the FHA insurance fund at risk; therefore, it should
       indemnify the loan.




15
     HUD Handbook 4155.1, REV-5, “Mortgage Credit Analysis for Mortgage Insurance, One to Four Family
     Properties, “ paragraph 2-4 B 2


                                                    25
Appendix C

                    REQUIRED QUALITY CONTROL REVIEW
                        REVERIFICATIONS MISSING
                       FROM 8 OF 14 FILES REVIEWED
    Loan file     Credit report      Verification      Verification     Verification      Verification     Opinion of
    number        reverification          of            of deposit      of gift letters   of mortgage       quality of
                                     employment                                              or rent      loan stated?
492-7586253             Yes             Yes                 No               No                No             Yes
                                                      (fee required)
491-8671362             Yes             Yes                 No               No               No              Yes
491-8619123             Yes            No/yesa              No               No               No              Yes
491-8687429             Yes            Yes/nob             Yesc              No               No              Yes
491-8614421            Yes               Yes               Yes               No               No              Yes
491-8663048            Yesd              Yes               No                No               No              Yes
491-8616422            Yes               Yes               No                No               No              Yes
491-8601428            Yes               Yes               Noe               No               No              Yesf



a      Only the wife's employment was verified.
b      Verification of employment was for one employer and not the second employer.
c      Comparison of bank account verification to bank statements submitted for the loan revealed significant
       differences.
d      The credit report showed delinquent rent owed to the landlord that was verified as current at the time of the
       loan. The difference was not reconciled by Alethes.
e      The reviewer could not verify the 401K. The loan application said the borrower did not have a checking
       account, but the borrower indicated to OIG that she did have and has always had a checking account.
f      The quality control contractor questioned why this loan was approved with bankruptcy and late payments after
       bankruptcy. However, Alethes’ underwriter stated that the bankruptcy was dismissed and was not considered
       for the loan approval.




                                                          26
Appendix D

                                    CASE NARRATIVES
Case Narrative for 491-8687429
Mortgage Amount:        $168,358

Date of Loan Closing: August 5, 2005

Gift Amount:      $5,130

Underwriting Deficiencies Unexplained income balance changes, nontraditional credit items
added to enhance credit, and gift fund transfer not documented.

Summary:

         Unexplained income that should have been questioned by the lender

         o The borrower’s bank balance showed a $1 balance on June 13, 2005, and $3,280.24
           on July 25, 2005, but the increase was not explained in the file. The bank statement
           reflected payroll from Pappas Partners which is not listed as an employer of borrower.

         o Print outs of on-line bank statements provided by borrower's boyfriend/common-law
           husband contained alterations. For example, a faxed copy of bank statement from the
           boyfriend/common-law husband’s account shows Denny's payroll deposited for the
           period of June 27, 2005 to July 25, 2005. Alterations include showing a deposit with
           a "-" instead of a "+" like other deposits on the bank statement.

         o The borrower account used for loan purposes had no rent or everyday expenses
           reflected in withdrawals. The borrower stated she did not deposit her Denny's pay
           into her checking account, however, her Denny pay stubs reflect an automatic
           deposit. This conflicted with the bank statement provided by the borrower.

         o Mailing address on W-2's for borrower is different for the three employers W-2's for
           tax years 2003 and 2004 even though borrower reported she had been renting same
           apartment since 2002.

             HUD requires 16 the lender to determine a borrower’s ability and willingness to repay
             the mortgage debt, thus limiting the probability of default and collection difficulties.
             Further HUD requires 17 a verification of deposit, along with the most recent bank
             statement, to verify savings and checking accounts. If there is a large increase in an

16
     HUD Handbook 4155.1 REV-5, “Mortgage Credit Analysis for Mortgage Insurance, One to Four Family
     Properties,” paragraph 2-1.
17
     HUD Handbook 4155. 1 REV-5 “Mortgage Credit Analysis for Mortgage Insurance, One to Four Family
     Properties,” paragraph 2-10 b.


                                                    27
             account, or the account was opened recently, the lender must obtain a credible
             explanation of the source of those funds.

         Added non-traditional credit items to enhance credit

             Waters Edge added three non-traditional credit items to enhance the borrower’s credit
             report. HUD regulations 18 do not allow a borrower with poor credit to enhance their
             credit with non-traditional credit.

         No documentation of gift funds transfer

             Alethes did not document the transfer of the gift funds. HUD regulation 4155.1 Chg
             4 2-10 C. states the lender must document the transfer of the funds from the donor to
             the borrower.

Recommendation:

             We recommend that the assistant secretary for housing—federal housing
             commissioner require Alethes to:

             A.    Indemnify the loan with an original mortgage amount of $168,358. The
                   projected loss is $48,824 based on HUD's insurance loss rate of 29 percent.




18
     HUD Handbook 4155.1 REV-5 “Mortgage Credit Analysis for Mortgage Insurance, One to Four Family
     Properties,” paragraph 2-4.


                                                    28
